U.S. Department of the Interior
Office of Inspector General

                             Audit Report
     Assessment and Collection of Taxes
          American Samoa Government




                          Report No. 2002-I-0003
                                 November 2001
                                                                                  N-IN-AMS-001-00-M

                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                        Pacific Field Office
                                      415 Chalan San Antonio
                                     Baltej Pavilion, Suite 306
                                     Tamuning, Guam 96913

                                                                                November 15, 2001


Honorable Tauese P.F. Sunia
Governor
American Samoa Government
Pago Pago, American Samoa 96799

Subject: Audit Report on the Assessment and Collection of Taxes, American Samoa Government
         (No. 2002-I-0003)

Dear Governor Sunia:

      This report presents the results of our audit of the assessment and collection of taxes by the
American Samoa Government.

       Section 5(a) of the Inspector General Act (5 U.S.C. app.3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by December 17, 2001. The response should provide
the information requested in Appendix 3 and should be addressed to our Pacific Field Office,
415 Chalan San Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam 96913.

                                              Sincerely,


                                              Arnold E. van Beverhoudt, Jr.
                                              Audit Manager for Insular Areas
                                                                                  N-IN-AMS-001-00-M

                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                        Pacific Field Office
                                      415 Chalan San Antonio
                                     Baltej Pavilion, Suite 306
                                     Tamuning, Guam 96913

                                                                                November 15, 2001


Memorandum

To:         Nikolao Pula - Acting Director, Office of Insular Affairs

From:       Arnold van Beverhoudt, Jr. - Audit Manager for Insular Areas

Subject:    Audit Report on the Assessment and Collection of Taxes, American Samoa Government
            (No. 2002-I-0003)

      This report presents the results of our audit of the assessment and collection of taxes by the
American Samoa Government.

       Section 5(a) of the Inspector General Act (5 U.S.C. app.3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by December 17, 2001. The response should provide
the information requested in Appendix 4 and should be addressed to our Pacific Field Office,
415 Chalan San Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam 96913.
EXECUTIVE SUMMARY
                   The American Samoa Code Annotated states that the income tax
BACKGROUND         laws in force in the United States, except where clearly inapplicable
                   to American Samoa, "are adopted by American Samoa, and shall be
                   deemed to impose a separate territorial income tax, payable to the
                   government." The Income Tax Division of the American Samoa
                   Department of Treasury is the agency charged with administering and
                   enforcing the American Samoa income tax laws. The Division
                   (commonly referred to as the Tax Office) collected taxes totaling
                   $31.3 million during fiscal year 1997 (the most recent year for which
                   financial statements had been published).


                   The objective of the audit was to determine whether the American
OBJECTIVE          Samoa Government (1) implemented the recommendations contained
                   in our June 1994 audit report on American Samoa’s financial
                   condition and (2) effectively assessed and collected income taxes.


                   Deficiencies that were disclosed in five prior audit reports issued since
RESULTS IN BRIEF   1986 continued to exist in the administration and collection of income
                   taxes. Specifically, we found that the Tax Office did not:

                   ‘     Select for examination tax returns that had the highest potential
                         for additional tax assessments.

                   ‘     Complete tax return examinations prior to the expiration of the
                         statute of limitations.

                   ‘     Ensure that prompt collection action was taken on taxes
                         receivable.

                   ‘     Pursue collection action against taxpayers who had left
                         American Samoa.

                   ‘     Adequately justify and document the abatement of taxes,
                         penalties, and interest.

                   ‘     Maintain accurate tax receivable records.
                           ‘     Effectively identify and collect income taxes from persons and
                                 businesses that did not file tax returns.

                           ‘     Ensure that the new automated income tax system functioned
                                 properly before it was implemented.

                           The deficiencies resulted in lost potential tax revenues of at least
                           $7.1 million during fiscal years 1997 through 1999.

                           General Fund deficits have increased from $11.7 million in fiscal year
                           1990 to $41.1 million in fiscal year 1997 (the most recent audited
                           financialstatements). This occurred despite annual operating subsidies
                           to the Government of about $23 million from the U.S. Department of
                           the Interior. We believe this condition will persist until decisive action
                           is taken to improve the administration of income tax collections.


                           We made 13 recommendations to the Governor of American Samoa.
RECOMMENDATIONS Key actions include the developing and implementing annual audit
                           plans to serve as a formal strategy for selecting income tax returns for
                           examination, providing Tax Office employees with adequate training,
                           developing and implementing written procedures to assist Tax Office
                           employees in performing their income tax assessment and collection
                           functions, establishing adequate accounting controls over income tax
                           receivables, adopting a formal nonfiler program to identify individuals
                           and businesses that had not filed income tax returns, and correcting
                           problems with the Tax Office’s automated income tax system. We
                           also recommended that the Director of the Office of Insular Affairs,
                           U.S. Department of the Interior, provide technical assistance in
                           developing policies and procedures and in implementing the new
                           automated income tax system, and monitor the progress of correction
                           actions by the Government.


                           The Governor of American Samoa did not provide a response to the
AUDITEE                    draft report and, therefore, the 13 recommendations addressed to the
COMMENTS AND               Governor are considered unresolved. The Acting Director of the
OFFICE OF                  Office of Insular Affairs indicated concurred with the two
INSPECTOR                  recommendations addressed that office, but did not provide a specific
GENERAL                    plan of action, including target dates, for implementing the
EVALUATION                 recommendations. Therefore, we requested additional information for
                           the two recommendations.



                                           2
CONTENTS
                   ................................................. 1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
RESULTS OF AUDIT   Audits of Income Tax Returns . . . . . . . . . . . . . . . . . . . . . . . . . 8
                   Collection of Income Taxes . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                   Identification of Nonfilers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                   Automated Income Tax System . . . . . . . . . . . . . . . . . . . . . . . . 22

                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
RECOMMENDATIONS

                   1.   Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
APPENDICES         2.   Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
                   3.   Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . 31
                   4.   Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . . . 33




                                         3
4
INTRODUCTION
                Title 11 of the American Samoa Code Annotated contains the laws
BACKGROUND      related to the administration of income taxes in American Samoa. The
                Code (11 A.S.C.A. § 11.0403(a)) states, "The income tax and the
                income tax rules in force in the United States of America and those
                which may hereafter be enacted or adopted, where not clearly
                inapplicable or incompatible with the intent of this section, are adopted
                by American Samoa, and shall be deemed to impose a separate
                territorial income tax, payable to the government." In addition, the
                Code (11 A.S.C.A. § 11.0404(a)) states, "The administration and
                enforcement of the American Samoa income tax shall be the
                responsibility of the treasurer of American Samoa under the general
                supervision of the Governor." The Code (11 A.S.C.A. §
                11.0404(b)) further states, "The treasurer shall have the same
                administrative and enforcement powers and remedies with regard to
                the American Samoa income tax as the Secretary of the Treasury, and
                other United States officials of the Executive branch, have with regard
                to the United States income tax." The Income Tax Division of the
                American Samoa Department of Treasury is the entity responsible for
                administering and enforcing the American Samoa income tax laws.

                The Income Tax Division (commonly referred to as the Tax Office)
                has six sections: Processing, Compliance, Collection, Audit,
                Information Systems, and Special Unit. During the audit, the
                Treasurer served as the Tax Office’s acting Tax Manager because
                the Tax Manager’s position was vacant. As of January 31, 2000, the
                Tax Office had a staff of 33 employees. American Samoa’s
                Comprehensive Annual Financial Report for fiscal year 1997 (the
                most recent report issued) reported total tax revenues of
                $31.3 million.


                The objective of the audit was to determine whether the American
OBJECTIVE AND   Samoa Government (1) implemented the recommendations contained
SCOPE           in our June 1994 audit report on American Samoa’s financial
                condition and (2) effectively assessed and collected income taxes.
                The scope of the audit included a review of income tax assessments
                and collections that occurred and the policies and procedures that
                were in effect during fiscal years 1998 and 1999 and other periods as
                appropriate. However, we were unable to determine the status of the
                recommendations contained in the June 1994 audit report because the


                                5
              American Samoa Government could not provide us with the tax
              records needed to determine if the recommendations relating to
              income taxes were implemented.

              To obtain information on the assessment and collection of income
              taxes, we interviewed officials and/or reviewed records at the offices
              of American Samoa’s Department of Treasury, Tax Office, Territorial
              Auditor’s Office, Office of the Attorney General, High Court, Office
              of Procurement, Budget Office, Department of Human Resources,
              and Telephone Authority. In addition, we visited the Office of Insular
              Affairs Field Representative’s office in American Samoa.

              Our review was made, as applicable, in accordance with the
              "Government Auditing Standards," issued by the Comptroller General
              of the United States. Accordingly, we included such tests of records
              and other auditing procedures that were considered necessary under
              the circumstances.

              As part of the audit, we evaluated the system of internal controls
              related to the assessment and collection of income taxes by the Tax
              Office to the extent that we considered necessary to accomplish the
              audit objective. Based on our review, we identified internal control
              weaknesses, which are discussed in the Results of Audit section of this
              report. Our recommendations, if implemented, should improve the
              internal controls in these areas.


              During the past 5 years, the Office of Inspector General has not issued
PRIOR AUDIT   any reports on the American Samoa Government’s administration of
COVERAGE      income taxes. However, since 1986, the Office of Inspector General,
              the U.S. General Accounting Office, and American Samoa’s
              Territorial Audit Office have issued a total of five reports related to
              American Samoa’s tax system (see Appendix 2).




                             6
RESULTS OF AUDIT
            The American Samoa Government lost potential revenues of at least
OVERVIEW    $7.1 million during 1998 and 1999 because of weaknesses in the
            administration and collection of income taxes. These weaknesses had
            been disclosed in five prior audit reports issued since 1986 by the
            Office of Inspector General, the U.S. General Accounting Office, and
            the American Samoa Territorial Audit Office (see Appendix 2).
            However, the American Samoa Government had not taken decisive
            action to correct all of the deficiencies cited in these audit reports.
            Specifically, we found that the American Samoa Tax Office did not:

            ‘     Select for examination tax returns that had the highest potential
                  for additional tax assessments.

            ‘     Complete tax return examinations prior to the expiration of the
                  statute of limitations.

            ‘     Ensure that prompt collection action was taken on taxes
                  receivable.

            ‘     Pursue collection action against taxpayers who had left
                  American Samoa.

            ‘     Adequately justify and document the abatement of taxes,
                  penalties, and interest.

            ‘     Maintain accurate tax receivable records.

            ‘     Effectively identify and collect income taxes from persons and
                  businesses that did not file tax returns.

            ‘     Ensure that the new automated income tax system functioned
                  properly before it was implemented.

            These conditions occurred because the Tax Office did not (1) develop
            and implement annual audit plans to serve as a formal strategy for
            selecting income tax returns for examination, (2) provide its employees
            with adequate training, (3) develop and implement written procedures
            to assist Tax Office employees in performing their income tax
            assessment and collection functions, (4) establish adequate accounting
            controls over income tax receivables, (5) adopt a formal nonfiler


                            7
                   program to identify individuals and businesses who had not filed
                   income tax returns and (6) ensure that the new automated income tax
                   system functioned properly before it was implemented.

                   Since at least 1990, General Fund expenditures have exceeded
                   revenues and, although the Government received annual operating
                   subsidies of about $23 million from the U.S. Department of the
                   Interior, General Fund deficits have increased from $11.7 million in
                   1990 to $41.1 million in 1997 (the most recent audited financial
                   statements). Until the American Samoa Government takes decisive
                   action to correct the problems with its income tax system, the
                   collection of income tax revenues will not be sufficient to fund the
                   operations of the American Samoa Government. If the Government
                   does not make significant improvements in the administration of
                   income taxes, the Office of Insular Affairs should consider whether it
                   would be appropriate to obtain assistance from outside experts to
                   manage the administration and collection of taxes in American Samoa.

                   During the June 26, 2001, exit teleconference on the preliminary draft
                   of this report, the Lieutenant Governor of American Samoa expressed
                   concern over the recommendation that the Office of Insular Affairs
                   should obtain assistance from outside experts to manage the
                   administration and collection of taxes. This recommendation was
                   made because repeated prior audits by the Office of Inspector
                   General, the U.S. General Accounting Office, and the American
                   Samoa Territorial Auditor have made recommendations to improve
                   the effectiveness of the tax collection function in American Samoa, but
                   little improvement has actually been made by the Government. The
                   recommendation is intended to be a "worst case scenario" alternative
                   that would be necessary only if the American Samoa Government
                   does not take meaningful action to correct the deficiencies cited in this
                   report.


                   The Tax Office did not have procedures to ensure that tax returns
AUDITS OF INCOME   selected for audit had the highest potential for additional tax
TAX RETURNS        assessments, did not ensure that tax audits covered all potential tax
                   issues, and did not ensure that the returns selected for review were
                   audited prior to the expiration of the statute of limitations. In that
                   regard, we found that the Tax Office’s Audit Section closed 152
                   cases, including 4 cases where additional taxes of $677,231 had been
                   identified, because the statute of limitations had expired.



                                   8
Formal Procedures and    The Tax Office did not have standards for "classifying" (or prioritizing)
Revenue Agent Training   income tax returns for audit and conducting audits of income tax
Not Adequate to Ensure   returns. Furthermore, the Chief of Audit stated that the revenue
Effective Tax Audits     agents did not use the Internal Revenue Manual developed by the
                         U.S. Internal Revenue Service (IRS) because it was complex and
                         difficult for the revenue agents to use.

                         Training was not currently provided to revenue agents. Only 2 of 7
                         revenue agents employed as of February 6, 2000 had received any
                         formal training related to auditing income tax returns. A formal IRS
                         training course was provided to the revenue agents during July and
                         August 1999. However, the training course was discontinued by the
                         Treasurer because tax revenues were declining. The Treasurer said
                         that "training was not a priority" and that "no money was allocated for
                         training." However, during our interviews, all of the revenue agents
                         expressed a need for training to develop their audit skills and enhance
                         their level of expertise and knowledge regarding taxes.

                         The Tax Office could not provide us an accurate report, whether
                         automated or manual, regarding the number of tax return audits that
                         were completed or in process during the period of our audit. The
                         manual records maintained by the Tax Office showed that 611 income
                         tax returns were reviewed by revenue agents during the period of
                         January 1997 to February 2000. However, computer-generated
                         reports for the same period showed that the number of tax returns
                         reviewed ranged from 631 to 704. We discussed this discrepancy
                         with the Information System Supervisor, and she was unable to
                         provide an explanation for the discrepancy.

                         In our opinion, the lack of written operating procedures and revenue
                         agent training contributed to the Audit Section’s inability to identify
                         additional tax assessments and to complete tax return audits prior to
                         the expiration of the 3-year statute of limitations. To resolve these
                         deficiencies, the Tax Office should develop and implement (1) annual
                         audit plans to focus audit efforts on issues with the greatest potential
                         for increased tax assessments; (2) standard operating procedures to
                         ensure that revenue agents’ audits of tax returns are thorough and
                         timely; and (3) an ongoing comprehensive training program for its
                         revenue agents, supervisors, and managers.




                                         9
Potential Tax Audit Issues             During the period of January 1997 to February 2000, the Tax Office
Not Addressed                          closed approximately 6111 tax audit cases that had been selected for
                                       audit by the Audit Section. Of the 611 tax audit cases, 338 found no
                                       additional taxes. We selected for review 58 of these 338 tax audit
                                       cases and determined that 43 cases had potential audit issues that
                                       were not detected by revenue agents because the revenue agents had
                                       been instructed to examine the tax returns only for dependency and
                                       filing status issues. Potential audit issues that were not addressed
                                       included expenses (shown on Schedule A, "Itemized Deductions," and
                                       Schedule C, "Profit or Loss From Business" of the filed income tax
                                       returns) that appeared excessive when compared to the amount of
                                       income shown on the tax returns. We also noted that 52 of the
                                       58 tax audit cases we reviewed had been open for more than 1 year,
                                       25 of the 58 cases had been closed without the tax returns ever having
                                       been audited, and none of the 58 tax audit cases had resulted in
                                       additional tax assessments.

                                       Of the remaining 273 tax audit cases (611 minus 338) for which
                                       taxpayers were assessed additional taxes, we reviewed 60 tax cases
                                       with additional tax assessments totaling $789,216 to determine if the
                                       assessment amounts were proper. Of the 60 cases we reviewed, 10
                                       cases appeared to have potential audit issues (such as large amounts
                                       claimed on business tax returns for rental expenses, cost of goods
                                       sold, utilities, vehicle repairs, and gifts) that were not addressed by
                                       revenue agents. According to the Audit Section Supervisor and the
                                       Chief of Audit, the former Tax Manager established an audit selection
                                       criterion that was limited primarily to dependency and filing status
                                       issues because most of the revenue agents had not received any
                                       formal training in auditing tax returns and were therefore not able to
                                       examine complex issues associated with business tax returns. The
                                       Audit Section Supervisor also told us that there were no written
                                       operating procedures for revenue agents to follow when examining tax
                                       returns. The Audit Section Supervisor said that the former Tax
                                       Manager was in the process of preparing written procedures but had
                                       not completed the procedures before she resigned from her position
                                       in January 2000.



__________
1
  Because of discrepancies between the manual and automated records, we could not determine the exact number of tax
returns that were examined by the Audit Section. Therefore, we based our review on the information contained in the
manual records.




                                                        10
Statute of Limitations                      We reviewed the tax returns for 227 of the 611 tax audit cases
Allowed to Expire on                        selected for audit by the Audit Section and found that the Audit
Incomplete Tax Audit                        Section had closed 152 tax audit cases because the 3-year statute of
Cases Valued at                             limitations2 had expired. Of these 152 cases, 100 had not been
$677,231                                    assigned to revenue agents. Of the remaining 52 tax audit cases that
                                            had been assigned to revenue agents, 43 cases had not been
                                            examined, examinations of 5 cases had been started but not
                                            completed, and examinations of 4 cases had been completed. We
                                            found that for the 4 tax audit cases that had been completed, revenue
                                            agents had identified additional income taxes totaling $677,231 that
                                            were owed to the American Samoa Government, However, these
                                            taxes were not collected, and the Tax Office had lost the opportunity
                                            to collect these taxes. Based on our review of the case files and on
                                            interviews with revenue agents assigned to the four cases, we
                                            determined the following:

                                                  - A revenue agent completed an audit of a tax return for tax
                                            year 1994, that resulted in an additional tax assessment of $107,618.
                                            However, the case was not transferred from the Audit Section to the
                                            Collection Section so that collection action could be initiated against
                                            the taxpayer. The case file did not indicate why the case was not
                                            transferred for collection action, and we could not discuss the case
                                            with the revenue agent or audit supervisor because they were no
                                            longer employed at the Tax Office.

                                                  - A revenue agent completed audits of 2 tax returns filed by a
                                            taxpayer for tax years 1993 and 1994. The revenue agent identified
                                            additional tax assessments totaling $217,767, including interest and
                                            penalties. Based on entries in the case file, the case file was to have
                                            been referred to the Office of the Attorney General because the
                                            taxpayer failed to provide support for specific items reported on the
                                            tax return. However, we found the case file in a filing cabinet
                                            maintained by the Audit Section’s secretary. We discussed this
                                            matter with the revenue agent and the secretary to determine why the
                                            case was not transferred to the Attorney General, and neither of these
                                            employees could explain how this oversight occurred. Because the 3-
                                            year statute of limitations on this case expired on April 15, 1997 (for
                                            the tax year 1993 return) and April 15, 1998 (for the tax year 1994
                                            return), the Tax Office lost the opportunity to collect additional taxes
                                            of $217,767 due from the taxpayer.

__________
2
  The statute of limitations for auditing tax returns runs for 3 years from the date that a tax return is filed.



                                                              11
                       - A revenue agent completed an audit of a tax return filed by a
                taxpayer on March 8, 1995 for tax year 1992. The revenue agent
                identified an additional tax assessment of $351,846. On March 6,
                1998, the revenue agent forwarded the case to the Audit Section
                supervisor for review, and on the same date the supervisor approved
                the assessment. However, the case file did not leave the Audit
                Section until June 12, 1998, and based on an entry in the case file, we
                determined that the Collection Section did not receive the case file
                until August 5, 1998. However, since the 3-year statute of limitation
                period expired on March 8, 1998, the Collection Section was unable
                to enforce collection of the tax assessment. The audit supervisor who
                reviewed this case is no longer employed by the Tax Office.
                However, the revenue agent who worked on the case stated that the
                audit supervisor allowed the case to expire without obtaining a written
                agreement with the taxpayer to extend the statute of limitations period.

                The Chief of Audit stated that he authorized the revenue agents to
                close tax cases for which the statute of limitations had expired or was
                about to expire in order to "bring the audit caseload to a manageable
                level." The Chief of Audit also told us that the audit of tax returns was
                limited to issues involving large dollar amounts to reduce the amount
                of time needed by revenue agents to perform tax audits. Revenue
                agents were not required to examine the relationships between income
                and expense amounts to determine if the amounts claimed on tax
                returns were reasonable.


                The American Samoa Government lost potential tax revenues of at
COLLECTION OF   least $6.4 million because the Tax Office did a poor job of collecting
INCOME TAXES    outstanding tax receivables. Specifically, the Tax Office did not (1)
                promptly act to collect tax receivables; (2) pursue collection action
                against taxpayers who had left American Samoa; (3) ensure that
                sufficient justification and documentation existed before abating taxes,
                penalties, and interest; and (4) maintain an accurate inventory of tax
                assessments and receivables. These conditions were caused by the
                lack of training for the revenue officers, the absence of written policies
                and procedures for the Collection Section, inadequate management
                oversight of the collection function, and insufficient accounting control
                over the tax receivables. In addition, there was a $3.1 million
                unreconciled difference between the manually generated tax
                receivable balance of $6.5 million as of September 30, 1997 and the
                automated income tax system’s tax receivable report balance of
                $3.4 million as of January 31, 2000.


                               12
Taxes of $4,486,727 Lost   Our review of collection records disclosed that the Tax Office did not
Because Collection         always take prompt action to collect tax receivable cases, resulting in
Enforcement Action Not     lost potential tax revenues of at least $4,486,727. According to Tax
Timely or Effective        Officer personnel, existing undocumented procedures required the
                           Tax Office to mail a series of three letters to delinquent taxpayers at
                           10-day intervals to solicit the taxpayers’ cooperation to pay the taxes
                           due. If the taxpayers did not respond within the 10-day response time
                           after the third letter, a fourth letter was sent to notify the taxpayer
                           that, unless arrangements were made immediately to pay the amounts
                           due, tax liens would be filed against the taxpayers, with tax levies to
                           follow. The statute of limitations for collection of income taxes is 10
                           years from the date of the assessment.

                           We selected for review 202 tax assessment cases with a combined
                           outstanding balance of $628,148. Of the 202 cases, 159 cases had
                           periods of inactivity relating to the issuance of collection letters and/or
                           other contacts with the taxpayers. We computed the elapsed time
                           between the last action taken by the revenue officer and the date of
                           our review (January 31, 2000) for 116 of the 202 cases, and
                           identified 93 cases, with outstanding assessments totaling $284,867,
                           where the revenue officer had not made any efforts to collect the
                           amount due for periods ranging from 3 to 32 months. For example:

                                  - On May 15, 1997, a taxpayer was assessed additional taxes
                           of $3,827. The case was transferred to another revenue officer on
                           June 22, 1998, after the taxpayer had started to make monthly
                           payments of $100. Although the last payment received was in July
                           1998, when the taxpayer still owed $3,282, the only recorded
                           followup action taken by the revenue officer was 2 months later, on
                           September 30, 1998, when the interest and penalties were revised,
                           and 12 months later, on September 14, 1999, when the revenue
                           officer wrote in the file that the taxpayer is "retiring from work. [I] will
                           follow-up again." As of January 31, 2000, no other action was taken
                           to collect the remaining taxes due.

                                 - On August 4, 1998, another taxpayer was assessed additional
                           taxes of $1,620. The case file showed that the revenue officer
                           received the case 2 days later and sent out the first demand letter. A
                           month later, on September 30, 1998, the assessment was revised to
                           $1,660 to reflect accrued interest and penalties. The next and final
                           entry was made more than a year later, on January 14, 2000, when
                           the taxpayer’s $39 tax refund for 1998 was offset against the



                                           13
                                          outstanding balance. The file contained no indication that the taxpayer
                                          was ever personally contacted by the revenue officer.

                                          The Internal Revenue Manual states, with regard to the importance of
                                          contacting taxpayers, "An effective first contact is the cornerstone to
                                          timely and effective case resolution." The effect of the lack of timely
                                          followup on collection cases can be seen in the inventory of tax
                                          assessments that the Tax Office considered inactive. Out of 194
                                          cases listed as inactive, the statute of limitations3 had expired for
                                          49 cases with outstanding taxes totaling $4,486,727. Moreover, only
                                          $1,665 had been collected from these 49 assessments before the
                                          statute of limitations had expired. The remaining 145 assessments had
                                          outstanding balances totaling $1.87 million, with an average of 3 years
                                          remaining on the 10-year statute of limitations.


Case Files Lost for                       During our review of the sufficiency of the tax audits, we identified 16
Taxes Due of $38,552                      cases with additional assessments totaling $38,552 that were
                                          forwarded to the Collection Section for collection action. The
                                          Collection Section, however, could not locate the files for these 16
                                          cases, and the Tax Office could not provide any evidence that
                                          collection actions had been initiated on the 16 cases. The Collection
                                          Supervisor also could not provide us with any explanation regarding
                                          the missing case files.


Taxes of $28,792 Lost                     The Tax Office did not always attempt to collect tax receivables from
Because Efforts Not                       taxpayers who had left the island, which resulted in the loss of
Made to Contact                           potential tax revenues totaling at least $28,792. The Tax Office did
Off-Island Taxpayers                      not take action to locate off-island taxpayers because the Office had
                                          not developed written procedures for requesting assistance from the
                                          IRS. A 1988 agreement between the IRS and the American Samoa
                                          Government provided for the exchange of information and mutual
                                          assistance in order to prevent income tax evasion and for the IRS to
                                          assist in collecting taxes owed by American Samoa taxpayers believed
                                          to be living in the United States. However, neither the Treasurer, the
                                          Chief of Processing and Collection, the Collection Supervisor, nor the
                                          revenue officers had a copy of the agreement or were even aware
                                          that the IRS would provide such assistance. As a result, revenue
                                          officers were left to their own initiative to try to locate taxpayers

__________
3
  The statute of limitations for collecting taxes due runs for 10 years from the date of the tax assessment.



                                                           14
                       believed to be in the United States, with the respective cases being
                       kept in an inactive status until some additional information on the
                       taxpayers’ new addresses was obtained.

                       Of the 202 tax collection cases reviewed, we identified 32 cases with
                       taxes due totaling $28,792 where the case files indicated that the
                       taxpayers were no longer residing in American Samoa and that the
                       taxpayers were thought to be living in the United States. However,
                       the 32 case files indicated that the revenue officers took very limited
                       (if any) action to locate the taxpayers. For example:

                             - On July 2, 1997, a taxpayer was assessed $405 for tax year
                       1996. A revenue officer was assigned to the case on July 18, 1997,
                       and the officer’s January 22, 1998 entry in the case file stated that he
                       had talked to the taxpayer’s last employer, who said that the taxpayer
                       had left the island in June 1997. Although the case was transferred to
                       another revenue officer in February 1998, the only documented work
                       on the case after January 1998 was to revise the amounts for interest
                       and penalty, which increased the total amount due to $479 as of
                       September 30, 1998.

                              - On October 17, 1997, another taxpayer was assessed
                       $6,095 for tax year 1994. The revenue officer’s last entry in the case
                       file, dated April 30, 1999, stated that the family moved to the United
                       States "for good last year." The Chief of Processing and Collection
                       reviewed the case on September 14, 1999 and advised the revenue
                       officer to "examine office records for leads to the whereabouts of the
                       taxpayer and take action accordingly." However, no further collection
                       action was documented in the case file, and the amount due had
                       increased as a result of additional accrued interest and penalties to
                       $7,101 as of September 30, 1998.

                       In both cases, the Tax Office did not solicit the IRS’s assistance in
                       locating the individual taxpayers, which, in our opinion, effectively
                       stopped any further collection action against the taxpayers.


Tax Abatements of      We judgmentally selected for review 35 tax assessment cases totaling
$1,917,467 Not         $2,006,413 out of 222 assessments with combined taxes, interest,
Adequately Supported   and penalties due of $3,695,726 that were abated during fiscal years
                       1998 and 1999. Based on our review, we identified 16 cases of
                       abatements totaling $1,917,467 that did not have sufficient



                                      15
                            documentation and justification to support the abatements. For
                            example:

                                   - In June 1997, a taxpayer was granted an abatement of
                            $59,405 for a 1995 assessment on the taxpayer’s 1993 tax return.
                            The justification written on the abatement form was that the tax return
                            was erroneously filed by the taxpayer’s accountant and that a new tax
                            audit was being scheduled. However, the taxpayer did not raise the
                            issue of the assessment until 16 months after the assessment was
                            made, when the taxpayer stated, in an April 1997 letter to the Tax
                            Office, that the assessment was "too much" for a business that he and
                            his partner were "trying to build." If the taxpayer was questioning the
                            validity of the assessment and had supporting information, the case
                            should have been referred to the Audit Section for review.
                            Conversely, if the taxpayer was questioning the amount of the
                            assessment on the basis of economic hardship, then the taxpayer
                            could have requested relief under the Offer and Compromise
                            provisions of the Internal Revenue Manual, in which case an analysis
                            of the taxpayer’s ability to pay would have to be made by the revenue
                            officer. However, the collection case file did not contain either the
                            results of a new tax audit or an analysis of the taxpayer’s financial
                            resources.

                                   - In July 1998, another taxpayer was granted an abatement of
                            penalty and interest totaling $1,391 because the original 1991
                            assessment notice had been sent to an incorrect address. During our
                            audit, the Tax Office was unable to locate the related collection file.
                            However, from alternate sources, we were able to establish that, as
                            of September 1997, the taxpayer had made payments of $1,223
                            against the assessment before the issue of the taxpayer’s address was
                            raised. Moreover, we could not determine if the taxpayer had actually
                            requested an abatement or if it was initiated by the revenue officer.


Revenue Officer Training,   One of the underlying causes of the lack of effective collection efforts
Procedures, and             was that the revenue officers had not received adequate formal
Management Oversight        training and there was no formal program to provide the needed
Not Adequate to Ensure      training. As a result, the revenue officers received only a very limited
Effective Collection        amount of informal on-the-job training, with the effectiveness of
Efforts                     individual revenue officers depending largely on their personal initiative
                            and the level of skills they brought to their positions from previous
                            work experience. Our review of the personnel files for the Tax Office
                            staff disclosed that the last formal training received by revenue officers


                                           16
                                      was in July 1988 and that only one person serving as a revenue officer
                                      had received the training. The lack of a formal training program was
                                      identified in two of our prior audit reports4 and in a technical
                                      assessment report on the Tax Office that was issued by the IRS in
                                      February 1994. The IRS report recommended that specialized
                                      training be provided to the Tax Office staff in the areas of audit and
                                      collection techniques.

                                      The need for the Tax Office to develop written policies and
                                      procedures for a uniform collection effort was also identified in the
                                      1994 IRS technical assessment report, which recommended that the
                                      Tax Office develop and standardize collection procedures to improve
                                      the collection of delinquent assessment cases. Without written
                                      procedures applicable to the specific operations of the Tax Office, it
                                      will be difficult to train revenue officers in a way that will ensure a
                                      consistent collection effort. Accordingly, we believe that the
                                      American Samoa Government should work with the Office of Insular
                                      Affairs and the IRS to develop and implement a formal training
                                      program and a procedures manual for the tax collection function.
                                      Lastly, the lack of adequate management control over the Collection
                                      Section further contributed to the lack of effective collection efforts.
                                      Our review of 202 collection cases disclosed that in 145 cases
                                      (including 64 cases with individual assessments of more than $500)
                                      there was no evidence in the files of supervisory review. We also
                                      found that, although the Collection Section had a performance
                                      reporting system that required the revenue officers to report daily cash
                                      collections, the reporting system did not include information related to
                                      problems that the revenue officers might be having in locating
                                      taxpayers or whether cases were being worked at all. In addition,
                                      although various computer reports for tracking collection cases were
                                      available from the previous and current automated tax systems, the
                                      data in these reports were unreliable. Moreover, although the
                                      Collection Section supervisor knew that the reports were inaccurate,
                                      he had not initiated steps to develop a reliable list of collection cases
                                      in order to control the estimated 687 cases assigned to the Collection
                                      Section. During our audit, we suggested to the supervisor that he
                                      develop his own list of collection cases using an electronic spreadsheet
                                      program to (1) verify the accuracy of the Data Systems Section
__________
4
  American Samos Government’s Territorial Income Tax System" (No. S-TG-AMS-16-85) and "Assessment and Collection
of Taxes, American Samoa Government" (No. 89-106). Additional information on these reports is in Appendix 2.




                                                      17
                       reports and (2) to provide a management tool to sort the cases by
                       various attributes, such as the dollar amount outstanding and
                       assessment date, to identify those cases needing special attention. The
                       supervisor subsequently started developing the suggested spreadsheet
                       of collection cases. The 1994 IRS technical assessment report
                       identified the lack of effective management and recommended that
                       management training for supervisors be emphasized at all levels with
                       "training on a continuous basis and of adequate duration to maintain
                       and improve their skills."


Tax Receivables Not    The Tax Office did not adequately account for income tax receivables
Adequately Accounted   valued at between $3.4 million and $6.5 million. This occurred
For or Controlled      because the Tax Office had not established adequate procedures for
                       (1) recording tax assessments in the Tax Office’s automated tax
                       system; (2) reconciling the balances of the individual assessments with
                       the automated reports that showed tax receivables, collections, and
                       abatements; and (3) developing an allowance for doubtful accounts.
                       In addition, the Tax Office did not have a designated accountant to
                       oversee the accounting for the universe of assessments. As a result,
                       the Tax Office was unable to determine the year-end tax receivable
                       balances for fiscal years 1998 and 1999. The last reconciled
                       year-end tax receivable balance was $6,538,797 as of September 30,
                       1997.

                       Although the Tax Office was under the Department of Treasury,
                       because of the confidentiality of taxpayer data, it functioned as a
                       quasi-autonomous agency with responsibility for maintaining its own
                       records on tax assessments and collections, as well as for providing
                       and maintaining accounting and administrative controls. The $6.5
                       million tax receivable balance for fiscal year 1997 was tabulated by an
                       accountant from the Department of the Treasury who had been
                       detailed to the Tax Office in December 1997 because the Tax Office
                       was not maintaining its own tax receivable balance. The accountant
                       stated that since no one within the Tax Office was responsible for
                       reconciling collection cases to the automated tax collection reports on
                       either a monthly or a quarterly basis, the only way he could determine
                       the year-end balance was to take an inventory of tax collection case
                       files and reconcile the individual case balances to the supporting
                       records for cash receipts. In January 1998, after the tax receivable
                       balance was tabulated for fiscal year 1997, the accountant was
                       permanently transferred to the Tax Office. However, he was assigned
                       as a revenue agent in the Audit Section rather than as an accountant.


                                      18
The lack of control over the receivable balance continued until a new
Tax Manager, who was hired in 1999, identified the need to establish
control procedures for tax receivables. The Tax Manager directed the
Chief of Processing and Collections, as part of his fiscal year 2000
performance goals, to (1) review all receivable cases and establish
accurate balances; (2) draft policies and procedures for writing off
bad debts, abatements, and compromises; and (3) develop meaningful
performance measures for the Collections Section. However, the
Tax Manager resigned in January 2000, and the performance goals
were never achieved.

We attempted to determine the total number and dollar value of
outstanding tax receivables as of September 30, 1999. However,
because of the poor condition of the tax records, we were unable to
determine the total number and outstanding balance of receivables.
In addition, no one in the Tax Office, including the Chief of
Processing and Collection and the Collection Section supervisor, was
involved in compiling the year-end receivable balance. The Tax
Office had a tax clerk who logged in tax receivable cases as they were
transferred from the Processing Section to the Collection Section and
had started performing daily cash collection reconciliations. However,
this clerk performed many different tasks, including functioning as an
office secretary, and did not have a sufficient "arms length" separation
from the daily work to independently perform or oversee the tasks
needed to maintain accounting control over the tax receivables.

The need to improve controls over tax receivables was illustrated
when we compared 116 assessment cases with outstanding taxes,
interest, and penalties totaling $432,538 with the amounts contained
in the automated income tax system tax receivable report dated
January 31, 2000. Of the 116 assessments reviewed, 81 had different
balances totaling $46,328. The differences ranged from $1 to
$15,231, with an average difference of $572 per assessment.

We also identified 8 cases with 11 separate assessments totaling
$490,087 where the taxpayers had appealed their assessments to the
High Court. We were able to trace only 3 assessments totaling
$13,411 to the fiscal year 1997 tax receivable balance and the
January 31, 2000 tax receivable report. In addition, of the eight
appeal cases, five cases with assessments totaling $425,280 had been
dismissed by the High Court as of January 21, 2000, but collection
action had not been started as of the time of our review because the
files were still at the Attorney General’s office.


               19
                         In our opinion, the most significant impact of the lack of control over
                         tax receivables was the unreconciled difference of $3,131,375
                         between the $6,538,797 documented receivable balance for fiscal
                         year 1997 and the $3,407,422 tax receivable balance reported in the
                         January 31, 2000 automated tax receivable report. This difference
                         leaves open the possibility that valid tax receivables may have been
                         incorrectly dropped from the accounting records. Accordingly, we
                         believe that the Tax Office needs to hire a full-time accountant who
                         can establish and maintain accounting control over the tax receivables.


                         The Tax Office did not effectively identify and collect income taxes
IDENTIFICATION OF        from persons and businesses that did not file tax returns. This
NONFILERS                occurred because the Tax Office had not established a formal nonfiler
                         identification program and had not assigned a sufficient number of
                         personnel to conduct nonfiler identification projects. Based on our
                         limited review of available sources of information in American Samoa,
                         we identified 56 persons and 19 businesses that appeared not to have
                         filed income tax returns for tax years 1997 and 1998.


16 Businesses Did Not    We obtained a list from the Treasury Department’s Revenue Office
File Tax Returns         of 1,575 business licenses issued in 1998. From this list, we
                         judgmentally selected 59 businesses to determine if they had filed tax
                         returns for tax year 1998. Of the 59 businesses selected for review,
                         we found that there was no record that 12 had filed tax returns for tax
                         year 1998. This included four businesses that had been granted
                         extensions to file but, as of May 5, 2000, had not filed income tax
                         returns. In addition, we found that four business license holders had
                         filed tax returns for personal earned income but had not filed Schedule
                         C forms, "Profit or Loss from Business," for their businesses.


Records Indicate         We obtained lists from the Department of Human Resources and the
45 Government            Tax Office containing the names of 122 high level American Samoa
Employees Did Not File   Government officials and Tax Office employees to determine if the
Returns                  officials and employees had filed income tax returns for tax years
                         1997 and 1998. For tax year 1997, we compared the names on the
                         lists with a computer report provided by the Processing Section that
                         showed the tax returns that the Tax Office had processed for tax year
                         1997. For tax year 1998, we compared the names with an electronic
                         spreadsheet of tax returns processed for tax year 1998 that the
                         Information Systems personnel had prepared at our request. Based


                                        20
                      on our comparisons, we found that there was no record that
                      9 officials/employees had filed income tax returns for tax year 1997,
                      that 11 officials/employees had filed income tax returns for

                      tax year 1998, and that 25 officials/employees had filed income tax
                      returns for both tax years 1997 and 1998.


At Least 11 Private   We randomly selected 37 American Samoa Wage and Tax
Employees and         Statements (Form W-2AS) submitted by 5 businesses for tax year
3 Employers Did Not   1998 to determine if the employees shown on the Wage and Tax
File Returns          Statements had filed income tax returns for tax year 1998. Of the 37
                      Wage and Tax Statements, we found that as of May 10, 2000, 11
                      employees had apparently not filed income tax returns for tax year
                      1998. The Wage and Tax Statements for the 11 employees showed
                      total wages of $131,713 and income taxes withheld of $5,780. In
                      addition, we found that three of the five employers had apparently not
                      filed income tax returns for tax year 1998.

                      We interviewed the supervisor of the Compliance Section to
                      determine the status of any nonfiler identification projects that were
                      conducted by the Tax Office. The supervisor said that his section was
                      responsible for assessing and collecting withholding taxes on gambling
                      winnings and identifying nonfilers of withholding taxes. However, the
                      supervisor stated that during the period of 1997 to 1999, only limited
                      work was done on nonfiler identification projects because his staff
                      was reassigned to the Collection Section, the Audit Section, and child
                      tax credit projects to assist with the work loads in those areas.

                      In our opinion, the Tax Office needs to establish a formal nonfiler
                      identification program to ensure that all individuals and businesses file
                      income tax returns and pay appropriate taxes. In addition, we believe
                      that the Tax Office should consider hiring a tax investigator to
                      investigate nonfilers of income taxes, including those potential nonfilers
                      identified during our audit. Therefore, the Tax Office should appoint
                      a nonfiler program coordinator, prepare a written nonfiler program
                      plan with specific goals and objectives, and provide a sufficient
                      number of staff (including a tax investigator) to conduct the program.
                      We believe that an aggressive nonfiler program would assist the Tax
                      Office in promoting voluntary compliance with the American Samoa
                      tax laws.




                                     21
             As a result of deficiencies in a new automated income tax system
AUTOMATED    implemented by the Tax Office, data entry personnel were not able to
INCOME TAX   enter all tax data into the system during its first year of operation, and
SYSTEM       the system experienced software problems at the start of Year 2000.
             Consequently, as of February 24, 2000, data entry personnel
             estimated that they had a data entry backlog of over 10,000 tax-
             related documents, including W-2AS forms and corporate income
             tax returns. In addition, amended tax returns and tax returns
             containing claims for child tax credits had to be processed manually
             because the computer programs in the new system could not process
             these returns. Further, the data in reports generated by the system
             could not be relied on by users because the data either were
             incomplete or were inaccurate.

             The new system was funded with $700,000 provided by the Office
             of Insular Affairs, U.S. Department of the Interior (of which $596,000
             was expended as of February 2000), and was based on the Guam
             Department of Revenue and Taxation’s automated tax system. The
             Tax Office implemented the system without ensuring that the computer
             programs in the system functioned properly and included all of the
             necessary income tax data fields. In addition, the Tax Office (1) did
             not develop user manuals to provide the Tax Office staff with the
             information needed to help them use the new system and to ensure
             that all input documents were controlled and eventually entered into
             the system and (2) did not ensure that all users of the new system
             received adequate training prior to the implementation of the system.
             This occurred because the Tax Office did not adequately develop and
             follow a comprehensive implementation plan for the new system. As
             a result, the system was not fully functional during its first year of
             operation.

             The Financial Management Improvement Plan, issued on March 23,
             1998, recommended that the Tax Office develop an implementation
             plan for the new income tax system. The implementation plan would
             have provided detailed steps for the Tax Office to ensure that the new
             system was thoroughly tested to determine if the computer programs
             functioned properly, contained all of the necessary tax information,
             and was Year 2000 compliant. In addition, the implementation plan
             would have ensured that the Tax Office developed user manuals and
             thoroughly trained system users before the new system became
             operational.




                            22
We interviewed personnel assigned to the Treasury Department’s
Computer Systems Section to determine if an implementation plan
was developed and followed. The Supervisor of the Computer
Systems Section told us that an implementation plan was not
prepared, but he provided us with a copy of an implementation
schedule that was prepared. The schedule, which was a 3-page
document, provided a list of tasks to be completed, the number of
days to complete each task, and the start and completion dates for
each task. Based on our review of the implementation schedule, we
concluded that the schedule did not provide sufficient detail to ensure
the successful implementation of the new system. In addition, we
noted that the schedule did not include steps for developing user
manuals and testing the software to determine if it was Year 2000
compliant.

Although the implementation schedule was inadequate to ensure that
the new system was implemented successfully, we asked the
Supervisor to provide us with documentation to support that the steps
shown in the schedule were completed by the American Samoa
Government. Based on our discussion with the Supervisor, we
determined that 13 of the 15 steps in the schedule either were not
completed or lacked documentation to support that they were
completed. For example, one of the crucial steps shown in the
implementation schedule was to "Test ASG’s [American Samoa
Government] Version of Tax Application." When we asked the
Supervisor to provide us with documentation to support that the
software testing was performed on the new tax system, he said that he
"did not know how this was accomplished or where a file might be
that showed how the testing was done and what test data was used."
Other significant steps in the implementation schedule that either were
not completed or could not be supported included developing tax
application documentation, documenting requests for changes to the
application software, and reconciling the tax master file and accounts
receivable data.

We also interviewed the computer consultant who was hired to
correct the deficiencies in the new system, including making system
changes that were needed to make the system Year 2000 compliant.
The consultant told us that the most recent work his firm had done on
the system was in August 2000 and that he believed that the system
"basically functions okay" but that "the software still has some bugs"
and "needs to be fully tested" to identify software deficiencies. The
consultant also said that, to correct the problems with the new system,


               23
the American Samoa Government needs to complete the following
tasks:

     - Develop and document system users manuals and operating
procedures, with emphasis on work flow processes.

      - Determine precisely what reports need to be generated by the
tax system.

      - Hire an experienced accountant to maintain accounts
receivable balances.

      - Provide "intense" training to systems personnel in system
programming and running queries.

      - Provide training to Tax Office employees in the use of the new
tax system.

While we were unable to determine the specific reasons for not
preparing a detailed implementation plan and not following the
implementation schedule, American Samoa Government officials told
us that the Governor decided that he wanted to expedite the
implementation of the new automated income tax system so that the
system would be operational for the 1998 income tax filing season.




               24
RECOMMENDATIONS
                  We recommend that the Governor of American Samoa require the
TO THE GOVERNOR   Treasurer to:
OF AMERICAN
SAMOA                   1. Develop and implement annual tax audit plans to ensure that
                  tax returns with the highest potential for identifying additional tax
                  assessments are selected for examination.

                         2. Develop and implement written operating procedures to
                  assist revenue agents and other Audit Section personnel in performing
                  examinations of tax returns and controlling case files.

                         3. Establish formal training profiles for each position
                  classification in the Tax Office, including supervisory positions. The
                  Treasurer may want to request technical assistance from the Internal
                  Revenue Service to establish the training profiles.

                         4. Develop and implement, based on the training profile for
                  each position (Recommendation 3), a comprehensive training program
                  for all Tax Office personnel.

                       5. Review all outstanding tax assessments, including the
                  taxpayers identified in our prior audit report, and develop a written
                  plan of action to collect the taxes due the American Samoa
                  Government.

                        6. Develop and implement written policies and procedures for
                  the collection of tax assessments. The written policies and procedures
                  should include provisions for soliciting the assistance of the U.S.
                  Internal Revenue Service in locating and collecting taxes from
                  taxpayers residing in the United States.

                          7. Establish an accountant position for the Tax Office and hire
                  a qualified individual for the position. When the accountant position
                  is filled, the accountant should be responsible for reconciling tax
                  receivable records and developing current and accurate receivable
                  balances.

                       8. Develop and implement written procedures for maintaining
                  an accurate inventory of tax receivable cases and tax receivable



                                 25
                     balances, establishing an allowance for doubtful accounts, writing off
                    bad debts, and reconciling case files to the data processing reports.


                          9. Investigate the potential nonfilers identified during our audit
                    and take appropriate action to obtain tax returns from these persons
                    and businesses. Any resultant taxes, penalties, and interest due the
                    Government should be collected.

                         10. Develop and implement a formal nonfiler identification
                    program to include a designated lead tax official; an overall plan of
                    action; specific goals; a reporting system to track the results of the
                    program; and a sufficient number of staff, including a tax investigator.
                    The program should include the use of existing sources of automated
                    and manual data to assist the Tax Office in identifying potential
                    nonfilers of income tax returns.

                         11. Ensure that the new automated income tax system is fully
                    tested to detect programming problems and make arrangements to
                    have any programming problems corrected.

                          12. Develop and implement a written users manual for the new
                    automated income tax system that provides Tax Office staff sufficient
                    instructions on using the system and controlling input documents.

                         13. Provide formal user training to all users of the automated
                    income tax system and provide formal systems programming and
                    report query training to systems personnel.


                    We recommend that the Director, Office of Insular Affairs, U.S.
TO THE DIRECTOR,    Department of the Interior:
OFFICE OF INSULAR
AFFAIRS                  14. Provide the American Samoa Government with technical
                    assistance to ensure that the deficiencies in the new automated income
                    tax system are corrected promptly, adequate tax-related and
                    automated system training is provided to Tax Office personnel, and a
                    comprehensive policy and procedures manual is developed for the
                    administration and collection of income taxes.

                        15. Monitor the progress of the American Samoa Government
                    to correct the deficiencies cited in this report. If reasonable
                    improvements are not made in the efficiency and effectiveness of the


                                   26
                    tax administration and collection system, determine whether it would
                    be appropriate to obtain assistance from outside experts to manage
                    the administration and collection of taxes.


                    The July 8, 2001 draft of this report requested that the Governor of
GOVERNOR OF         American Samoa provide a response to the recommendations by
AMERICAN SAMOA      August 24, 2001. However, as of October 9, 2001, the Governor
RESPONSE            had not provided a response to the draft report. Therefore, we
                    consider Recommendations 1 through 13 unresolved (see
                    Appendix 4).


                    The undated response (Appendix 3) to the draft report from the
OFFICE OF INSULAR   Acting Director of the Office of Insular Affairs indicated concurrence
AFFAIRS RESPONSE    with Recommendations 14 and 15, and provided general information
                    on actions taken by the Office of Insular Affairs to assist the American
                    Samoa Government to improve its tax administration and collection
                    operations. However, the response did not provide a specific plan of
                    action, including target dates, for implementing the recommendations.
                    Therefore, we request additional information for the two
                    recommendations (see Appendix 4).




                                   27
APPENDIX 1 - MONETARY IMPACT
                                          Lost
FINDING AREAS                           Revenues*


Audits of Income Tax Returns             $677,231

Collection of Income Taxes               6,471,538

   Totals                               $7,148,769




__________
* Amounts represent local funds.




                                   28
APPENDIX 2 - PRIOR AUDIT REPORTS
               In May 1986, the Office of Inspector General issued the audit report
OFFICE OF      "American Samoa Government’s Territorial Income Tax System"
INSPECTOR      (No. S-TG-AMS-16-85), which stated that the American Samoa
GENERAL        Government did not take aggressive and timely action to collect
REPORTS        income taxes and did not have adequate procedures to ensure that
               nonfilers of income taxes were identified and that taxes were promptly
               collected.

               In August 1989, the Office of Inspector General issued the audit
               report "Assessment and Collection of Taxes, American Samoa
               Government" (No. 89-106), which stated that of 61 prior audit
               recommendations, only 22 recommendations had been implemented
               and that failure to implement the remaining 39 recommendations in a
               timely manner had resulted in lost revenues to American Samoa of
               about $4 million during the period of 1981 to 1984. The report also
               stated that American Samoa was losing tax revenues of more than $2
               million annually.

               In June 1994, the Office of Inspector General issued the audit report
               "Estimated Financial Condition, American Samoa Government" (No.
               94-I-651) for the period of October 1, 1990 through March 31,
               1993. The report stated that American Samoa "(1) did not ensure
               that individual and business taxpayers paid their assessed income
               taxes timely, (2) did not process tax collection cases timely, and (3)
               sometimes allowed political considerations to impede tax collection
               efforts." According to the Treasury Department’s Tax Manager and
               its Tax Advisor, as of March 31, 1993, American Samoa had taxes
               receivable of $4.8 million, of which $3.7 million (77 percent) was 90
               days or more past due. In addition, both the Tax Manager and the
               Tax Advisor stated that American Samoa had lost tax revenues of at
               least $734,000 during fiscal years 1992 and 1993.


               In April 1992, the U.S. General Accounting Office issued the report
U.S. GENERAL   "Inadequate Management and Oversight Contribute to Financial
ACCOUNTING     Problems, American Samoa." ( GAO/NSIAD-92-64) The report
OFFICE         stated that (1) the American Samoa Government, to cover General
REPORT         Fund shortfalls, transferred increasing amounts of money from other
               funds and by fiscal year 1991 was having cash flow problems and was
               having difficulty in making payments; (2) American Samoa’s financial


                              29
                    situation worsened despite substantial growth in local revenues since
                    1980; (3) corporate tax revenues were difficult to predict; and (4) a
                    considerable portion of income taxes from individuals and businesses
                    had not been collected.


                    In August 1997, the American Samoa Territorial Audit Office issued
TERRITORIAL AUDIT   the report "Limited Scope Audit, Tax Office, Department of Treasury,
OFFICE              American Samoa Government" (No. 97-117), which stated that (1)
REPORT              the posting of accounts receivable was "woefully delinquent," (2) there
                    was little enforcement and no criminal prosecution of fraudulent filers,
                    and (3) information necessary for good management was not readily
                    obtainable. In addition, the report stated that the American Samoa
                    Government "might do well to out-source the Tax Office in order to
                    increase revenue to the American Samoa Government."




                                   30
APPENDIX 4 - STATUS OF
RECOMMENDATIONS

 Finding/Recommendation
        Reference           Status                        Action Required

      1 through 13        Unresolved.   Provide a response to the recommendations
                                        indicating concurrence or nonconcurrence. If
                                        concurrence is indicated, provide a plan of action,
                                        including the target date and the title of the
                                        responsible official, for implementing each
                                        recommendation.

       14 and 15          Management    Provide a plan of action, including the target date
                          concurs;      and the title of the responsible official, for
                          additional    implementing each recommendation.
                          information
                          requested.




                                         33
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and
management of the Department of the Interior (DOI). We
accomplish our mission in part by objectively and independently
assessing major issues and risks that directly impact, or could
impact, the DOI=s ability to carry out its programs and
operations and by timely advising the Secretary, bureau
officials, and the Congress of actions that should be taken to
correct any problems or deficiencies. In that respect, the value
of our services is linked to identifying and focusing on the most
important issues facing DOI.


How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone B Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related
to Departmental or insular area programs and operations. You
can report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free             800-424-5081

              Washington Metro Area         202-208-5300
              Hearing Impaired              202-208-2420
              Fax                           202-208-6023

              Caribbean Region              703-487-8058
              Northern Pacific Region       671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
